         DEPARTMENT OF HEALTH & HUMAN SERVICES 	                                 Office of Inspector General



                                                                                 Washington. D.C. 20201


                                                FEB 14 2011



TO: 	             Donald M. Berwick, M.D. 

                  Administrator 

                  Centers for Medicare & Medicaid Services 


                                 /S/
FROM:             Stuart Wright 

                  Deputy Inspector General 

                     for Evaluation and Inspections 



SUBJECT: 	 Memorandum Report: Comparison ofSecond-Quarter 2010 Average Sales
           Prices and Average Manufacturer Prices: Impact on Medicare Reimbursement
           for Fourth Quarter 2010, OEI-03-11-00030


This review was conducted in accordance with the statutory mandate for the Office of Inspector
General (OIG) to compare average sales prices (ASP) and average manufacturer prices (AMP)
for Medicare Part B prescription drugs and identify ASPs that exceed AMPs by at least
5 percent. The review also estimated the financial impact of lowering reimbursement amounts
for drugs that exceeded the 5-percent threshold to 103 percent of the AMP, pursuant to statute.

SUMMARY

Since the advent of the ASP reimbursement methodology, OIG has issued 18 reports comparing
ASPs to AMPs. This latest pricing comparison examines drugs that exceeded the 5-percent
threshold based on either complete or partial AMP data in the second quarter of2010. Of the
350 drug codes with complete AMP data in that quarter, 10 exceeded the 5-percent threshold.
Over half of the 10 codes were also eligible for price reduction in at least one ofthe three
previous quarters. If reimbursement amounts for all 10 codes with complete AMP data had been
based on 103 percent ofthe AMPs during the fourth quarter of 201 0, we estimate that Medicare
and its beneficiaries would have saved over $700,000 in that quarter alone. Of the 106 drug
codes with only partial AMP data in the second quarter of201O, 15 had ASPs that exceeded the
AMPs by at least 5 percent. Although CMS has expressed concern that partial AMP data may
not adequately reflect market trends, we found that pricing comparisons for 5 of the 15 codes
seemed to accurately capture underlying market trends even though AMP data were missing for
some of the associated drug products. Therefore, price reductions may be appropriate in these
five cases. We could not perform pricing comparisons for an additional 54 drug codes because
none of the drug products used to establish Medicare reimbursement had corresponding AMP
data. Manufacturers for 16 percent of those drug products had Medicaid drug rebate agreements
and were therefore generally required to submit AMPs.




OEI-03-11-00030          Comparison of Second-Quarter 2010 ASPs and AMPs
Page 2 – Donald M. Berwick, M.D.


BACKGROUND

The Social Security Act (the Act) mandates that OIG compare ASPs to AMPs. 1 If OIG finds
that the ASP for a drug exceeds the AMP by a certain percentage (currently 5 percent), section
1847A(d)(3)(A) of the Act states that the Secretary of Health & Human Services (the Secretary)
may disregard the ASP for the drug when setting reimbursement amounts. 2 Section
1847A(d)(3)(C) of the Act further states that “… the Inspector General shall inform the Secretary
(at such times as the Secretary may specify to carry out this subparagraph) and the Secretary
shall, effective as of the next quarter, substitute for the amount of payment … the lesser of (i) the
widely available market price … (if any); or (ii) 103 percent of the average manufacturer
price….”

Medicare Part B Coverage of Prescription Drugs
Medicare Part B covers only a limited number of outpatient prescription drugs. Covered drugs
include injectable drugs administered by a physician; certain self-administered drugs, such as
oral anticancer drugs and immunosuppressive drugs; drugs used in conjunction with durable
medical equipment; and some vaccines.

Medicare Part B Payments for Prescription Drugs
The Centers for Medicare & Medicaid Services (CMS) contracts with private companies, known
as Medicare Administrative Contractors (MAC), to process and pay Medicare Part B claims,
including those for prescription drugs. To obtain reimbursement for covered outpatient
prescription drugs, health care providers submit claims to their MACs using procedure codes.
CMS established the Healthcare Common Procedure Coding System (HCPCS) to provide a
standardized coding system for describing the specific items and services provided in the
delivery of health care. In the case of prescription drugs, each HCPCS code defines the drug
name and the amount of the drug represented by the HCPCS code but does not specify
manufacturer or package size information.

Medicare and its beneficiaries spent over $11 billion for Part B drugs in 2009. 3 Although
Medicare paid for nearly 800 outpatient prescription drug HCPCS codes that year, most of the
spending for Part B drugs was concentrated on a relatively small subset of those codes. In 2009,
64 HCPCS codes accounted for 90 percent of the expenditures for Part B drugs, with only 13 of
these codes representing the majority (52 percent) of total Part B drug expenditures.




1
  Section 1847A(d)(2)(B) of the Act.
2
  Section 1847A(d)(3)(B)(ii) of the Act provides the Secretary with authority to adjust the applicable threshold
percentage in 2006 and subsequent years; however, the threshold percentage has been maintained at 5 percent.
3
  Medicare expenditures for Part B drugs in 2009 were calculated using CMS’s Part B Analytics and Reports
(PBAR). The PBAR data for 2009 were downloaded in March 2010.



OEI-03-11-00030            Comparison of Second-Quarter 2010 ASPs and AMPs
Page 3 – Donald M. Berwick, M.D.


Reimbursement Methodology for Part B Drugs and Biologicals
Medicare Part B pays for most covered drugs using a reimbursement methodology based on
ASPs. 4 As defined by law, an ASP is a manufacturer’s sales of a drug to all purchasers in the
United States in a calendar quarter divided by the total number of units of the drug sold by the
manufacturer in that same quarter. 5 The ASP is net of any price concessions, such as volume
discounts, prompt pay discounts, cash discounts, free goods contingent on purchase
requirements, chargebacks, and rebates other than those obtained through the Medicaid drug
rebate program. 6 Sales that are nominal in amount are exempted from the ASP calculation, as
are sales excluded from the determination of “best price” in Medicaid’s drug rebate program. 7, 8

Manufacturers that participate in the Medicaid drug rebate program must provide CMS with the
ASP and volume of sales for each of their national drug codes (NDC) on a quarterly basis, with
submissions due 30 days after the close of each quarter. 9 An NDC is an 11-digit identifier that
represents a specific manufacturer, product, and package size.

Because Medicare Part B reimbursement for outpatient drugs is based on HCPCS codes rather
than NDCs and more than one NDC may meet the definition of a particular HCPCS code, CMS
has developed a file that “crosswalks” manufacturers’ NDCs to HCPCS codes. CMS uses
information in this crosswalk file to calculate volume-weighted ASPs for covered HCPCS codes.

Calculation of Volume-Weighted ASPs
Fourth-quarter 2010 Medicare payments for most covered drug codes were based on
second-quarter 2010 ASP submissions from manufacturers, which were volume-weighted using
an equation that involves the following variables: the ASP for the 11-digit NDC as reported by
the manufacturer, the volume of sales for the NDC as reported by the manufacturer, and the
number of billing units in the NDC as determined by CMS. 10 The amount of the drug contained
in an NDC may differ from the amount of the drug specified by the HCPCS code that providers
use to bill Medicare. Therefore, the number of billing units in an NDC describes the number of
HCPCS code units that are in that NDC. For instance, an NDC may contain a total of
10 milliliters of Drug A, but the corresponding HCPCS code may be defined as only 5 milliliters
of Drug A. In this case, there are two billing units in the NDC. CMS calculates the number of
billing units in each NDC when developing its crosswalk files.

4
  Several Part B drugs, including certain vaccines and blood products, are not paid for under the ASP methodology.
5
  Section 1847A(c) of the Act, as added by the Medicare Prescription Drug, Improvement, and Modernization Act of
2003, P.L. 108-173.
6
  Section 1847A(c)(3) of the Act.
7
  Section 1847A(c)(2) of the Act.
8
  Pursuant to section 1927(c)(1)(C)(i) of the Act, “best price” is the lowest price available from the manufacturer
during the rebate period to any wholesaler, retailer, provider, health maintenance organization, nonprofit entity, or
governmental entity within the United States, with certain exceptions.
9
  Section 1927(b)(3) of the Act.
10
   The equation that CMS currently uses to calculate volume-weighted ASPs is described in section 1847A(b)(6) of
the Act. It is also provided in Appendix A.




OEI-03-11-00030           Comparison of Second-Quarter 2010 ASPs and AMPs
Page 4 – Donald M. Berwick, M.D.


Under the ASP pricing methodology, the Medicare allowance for most Part B drugs is equal to
106 percent of the volume-weighted ASP for the HCPCS code. Medicare beneficiaries are
generally responsible for 20 percent of this amount in the form of coinsurance.

The Medicaid Drug Rebate Program and AMPs
For Federal payment to be available for covered outpatient drugs provided under Medicaid, the
Act mandates that drug manufacturers enter into rebate agreements with the Secretary and pay
quarterly rebates to State Medicaid agencies. 11 Under these rebate agreements and pursuant to
the Act, manufacturers must provide CMS with the AMPs for each of their NDCs. 12 As further
explained in regulation, manufacturers are required to submit AMPs within 30 days after the end
of each month and each quarter. 13

During the second quarter of 2010, the AMP was generally defined by statute to be the average
price paid to the manufacturer for the drug in the United States by wholesalers for drugs
distributed to the retail pharmacy class of trade. 14, 15 The AMP is generally calculated as a
weighted average of prices for all of a manufacturer’s package sizes of a drug and is reported for
the lowest identifiable quantity of the drug (e.g., 1 milliliter, 1 tablet, 1 capsule). 16

Penalties for Failure To Report Timely Drug Pricing Data
Under the law, manufacturers that fail to provide ASP and AMP data on a timely basis may be
subject to civil money penalties and/or termination from the drug rebate program. 17, 18
Accordingly, CMS has terminated rebate agreements with a number of manufacturers for failure
to report AMPs and, for the purposes of evaluating potential civil money penalties, has referred
to OIG manufacturers that failed to submit timely AMPs. 19 At the time of our review, no
manufacturers had been terminated or formally referred to OIG for failure to report timely ASPs.
In September 2010, OIG announced a new enforcement initiative under which OIG would begin
imposing civil money penalties on manufacturers that failed to report timely ASPs and/or AMPs.



11
   Sections 1927(a)(1) and (b)(1) of the Act.
12
   Section 1927(b)(3) of the Act.
13
   42 CFR § 447.510.
14
   Section 1927(k)(1) of the Act.
15
   Effective October 2010, section 2503 of the Patient Protection and Affordable Care Act (Affordable Care Act),
P.L. 111-148, changes the definition of AMP in a way that is not relevant for the purposes of this report. However,
it may affect pricing comparisons between ASPs and AMPs for the fourth quarter of 2010 and beyond.
16
   During the second quarter of 2010, 42 CFR § 447.504(i) specified that a quarterly AMP should be calculated as a
weighted average of monthly AMPs in the quarter.
17
   Sections 1927(b)(3)(C)(i) and (4)(B)(i) of the Act.
18
   The Secretary delegated to OIG the responsibility to impose civil money penalties for violations of section
1927(b)(3)(C) of the Act in 59 Fed. Reg. 52967 (Oct. 20, 1994).
19
   CMS began referring noncompliant manufacturers to OIG in response to a 2005 report entitled Deficiencies in the
Oversight of the 340B Drug Pricing Program (OEI-05-02-00072). As part of this report, OIG recommended that
CMS consider referring manufacturers whose pricing data submissions do not comply with reporting requirements
to OIG so that penalties could be imposed in appropriate cases.



OEI-03-11-00030           Comparison of Second-Quarter 2010 ASPs and AMPs
Page 5 – Donald M. Berwick, M.D.


Office of Inspector General’s Monitoring of ASPs and AMPs
In accordance with its statutory mandate, OIG has issued 16 quarterly pricing comparisons since
the ASP reimbursement methodology for Part B drugs was implemented in January 2005. In
addition, OIG has completed two annual overviews of ASPs and AMPs, which examined data
across all four quarters of 2007 and 2008, respectively. A list of all 18 reports is provided in
Appendix B.

Although OIG has consistently recommended that CMS develop a price substitution policy and
subsequently lower reimbursement for drugs that exceed the 5-percent threshold, no price
substitutions have been made to date. In July 2010, CMS published a proposed rule that, among
other things, specified the circumstances under which AMP-based price substitutions would
occur. 20 However, the agency has opted not to finalize the price substitution policy from the
proposed rule, thereby suspending any plans to lower reimbursement amounts based on the
results of OIG’s pricing comparisons. 21, 22

METHODOLOGY

We obtained a file from CMS containing NDC-level ASP data from the second quarter of 2010,
which were used to establish Part B drug reimbursement for the fourth quarter of 2010. This file
also includes information that crosswalks NDCs to their corresponding HCPCS codes. Both the
ASP data and the crosswalk data were current as of September 27, 2010. We also obtained AMP
data from CMS for the second quarter of 2010, which were current as of August 3, 2010.

Analyzing ASP Data From the Second Quarter of 2010
As mentioned previously, Medicare does not base reimbursement for covered drugs on NDCs;
instead, it uses HCPCS codes. Therefore, CMS uses ASP information submitted by
manufacturers for each NDC to calculate a volume-weighted ASP for each covered HCPCS
code. When calculating these volume-weighted ASPs, CMS includes only NDCs with ASP
submissions that are deemed valid.

As of October 2010, CMS had established prices for 519 HCPCS codes based on the ASP
reimbursement methodology mandated by section 1847A(b)(6) of the Act. Reimbursement
amounts for the 519 HCPCS codes were based on ASP data for 3,001 NDCs.

Analyzing AMP Data From the Second Quarter of 2010
To ensure that the broadest range of drug codes is subject to OIG’s pricing comparisons, we
divided HCPCS codes into the following three groups:

20
   75 Fed. Reg. 40040, 40259 (July 13, 2010).
21
   75 Fed. Reg. 73170, 73471 (Nov. 29, 2010).
22
   CMS cited a number of factors in support of its decision not to finalize the price substitution policy, including an
ongoing preliminary injunction issued on December 19, 2007, by the United States District Court for the District of
Columbia, as well as upcoming regulations that will implement changes to the definition of AMP pursuant to section
2503 of the Affordable Care Act. On December 14, 2010, the preliminary injunction was vacated.



OEI-03-11-00030            Comparison of Second-Quarter 2010 ASPs and AMPs
Page 6 – Donald M. Berwick, M.D.


           (1) HCPCS codes with complete AMP data—i.e., HCPCS codes with AMP data for
               every NDC that CMS used in its calculation of volume-weighted ASPs;

           (2) HCPCS codes with partial AMP data—i.e., HCPCS codes with AMP data for only
               some of the NDCs that CMS used in its calculation of volume-weighted ASPs; and

           (3) HCPCS codes with no AMP data—i.e., HCPCS codes with no AMP data for any of
               the NDCs that CMS used in its calculation of volume-weighted ASPs.

As previously noted, the AMP for each NDC is reported for the lowest identifiable quantity of
the drug contained in that NDC (e.g., 1 milliliter, 1 tablet, 1 capsule). In contrast, the ASP is
reported for the entire amount of the drug contained in the NDC (e.g., 50 milliliters, 100 tablets).
To ensure that the AMP would be comparable to the ASP, it was necessary to convert the AMP
for each NDC so that it represented the total amount of the drug contained in that NDC.

To calculate “converted AMPs” for NDCs in the first and second groups, we multiplied the AMP
by the total amount of the drug contained in each NDC, as identified by sources such as the CMS
crosswalk file, manufacturer Web sites, Thomson Reuters’ Red Book, and the Food and Drug
Administration’s NDC directory. 23 For certain NDCs, we were unable to successfully identify
the amount of the drug reflected by the ASP and therefore could not calculate a converted AMP.
Because of these unsuccessful AMP conversions, a total of nine HCPCS codes were removed
from our analysis.

Using NDCs with successful AMP conversions, we then calculated a volume-weighted AMP for
each of the corresponding HCPCS codes, consistent with CMS’s methodology for calculating
volume-weighted ASPs. When calculating the volume-weighted AMP for a HCPCS code with
partial AMP data, we excluded any NDCs without AMPs; however, we did not exclude those
NDCs from the corresponding volume-weighted ASP. This means that the volume-weighted
AMP for a HCPCS code with partial AMP data is based on fewer NDCs than the
volume-weighted ASP for that same code. Appendix C provides a more detailed description of
the methods we used to both convert AMPs and calculate volume-weighted AMPs. Table 1
provides the final number of HCPCS codes and NDCs included in our analysis after we removed
NDCs with either no AMP data or unsuccessful AMP conversions.




23
     We did not calculate converted AMPs for NDCs in the third group because those NDCs had no AMP data.



OEI-03-11-00030            Comparison of Second-Quarter 2010 ASPs and AMPs
Page 7 – Donald M. Berwick, M.D.


Table 1: Number of Drug Codes and NDCs Included in OIG’s Pricing Comparison
                                                                              Number of          Number of
 Availability of AMP Data for HCPCS Codes
                                                                           HCPCS Codes              NDCs

 Complete AMP Data                                                                   350              1,353

 Partial AMP Data                                                                    106               821

 No AMP Data                                                                          54               236

Source: OIG analysis of second-quarter 2010 ASP and AMP data, 2010.


Comparing Second-Quarter 2010 Volume-Weighted ASPs and AMPs for HCPCS Codes
With Complete AMP data
For each of the 350 HCPCS codes with complete AMP data, we compared the volume-weighted
ASP and AMP and determined whether the ASP for the code exceeded the AMP by at least
5 percent. For HCPCS codes that exceeded the 5-percent threshold, we reviewed the associated
NDCs to verify the accuracy of the billing unit information. According to our review, none of
the HCPCS codes that exceeded the threshold were associated with questionable billing units.
However, we excluded one HCPCS code from our findings because the manufacturer of the
corresponding NDC indicated to OIG that the AMP data were not correct. 24

For each of the remaining HCPCS codes that exceeded the 5-percent threshold, we estimated the
monetary impact of lowering reimbursement to 103 percent of the AMP. 25 First, we calculated
103 percent of the volume-weighted AMP and subtracted this amount from the fourth-quarter
2010 reimbursement amount for the HCPCS code. To estimate the financial effect for the fourth
quarter of 2010, we then multiplied the difference by one-fourth of the number of services that
were allowed by Medicare for each HCPCS code in 2009, as reported in the PBAR. 26, 27

We additionally determined whether HCPCS codes with complete AMP data also exceeded the
5-percent threshold in any of the three previous quarters, dating back to the third quarter of 2009.
We then totaled the estimated savings for that subset of codes.




24
   In the course of a previous study (see OEI-03-09-00350), a manufacturer notified us that the AMPs for one of its
NDCs were incorrect for all four quarters of 2008. The second-quarter 2010 AMP for that NDC was the same as the
fourth-quarter 2008 AMP identified by the manufacturer as incorrect; therefore, we assumed that the second-quarter
2010 AMP was incorrect as well. We will provide the name of this manufacturer to CMS for followup.
25
   Section 1847A(d)(3)(C) of the Act directs the Secretary to replace payment amounts for drugs that exceed the
5-percent threshold with the lesser of the widely available market price for the drug (if any) or 103 percent of the
AMP. For the purposes of this study, we used 103 percent of the AMP to estimate the impact of lowering
reimbursement amounts. If widely available market prices had been available for these drugs and lower than
103 percent of the AMP, the savings estimate presented in this report would have been greater.
26
   The PBAR data for 2009 were 98 percent complete when the data were downloaded in March 2010.
27
   This estimate assumes that the number of services that were allowed by Medicare in 2009 remained consistent
from one quarter to the next and that there were no significant changes in utilization between 2009 and 2010.



OEI-03-11-00030            Comparison of Second-Quarter 2010 ASPs and AMPs
Page 8 – Donald M. Berwick, M.D.


Comparing Second-Quarter 2010 Volume-Weighted ASPs and AMPs for HCPCS Codes
With Partial AMP data
For each of the 106 HCPCS codes with partial AMP data, we compared the volume-weighted
ASP and AMP and determined whether the ASP for the code exceeded the AMP by at least
5 percent. For HCPCS codes that exceeded the 5-percent threshold, we reviewed the associated
NDCs to verify the accuracy of the billing units. According to our review, NDCs for two codes
had billing unit information in CMS’s crosswalk file that may not have accurately reflected the
number of billing units actually contained in the NDC. Because volume-weighted ASPs and
AMPs are calculated using this billing unit information, we could not be certain that the results
for these two codes were correct. Therefore, we excluded these HCPCS codes from our findings.

For each of the remaining HCPCS codes that exceeded the 5-percent threshold, we determined
whether missing AMPs unduly influenced the results of our pricing comparison. As mentioned
previously, the volume-weighted AMP for a HCPCS code with partial AMP data is based on
fewer NDCs than the volume-weighted ASP for that same code. Therefore, there may be a
disparity between the volume-weighted ASP and AMP that would not exist if AMP data were
available for the full set of NDCs. In other words, the volume-weighted ASP for the HCPCS
code could exceed the volume-weighted AMP by at least 5 percent only because AMPs for
certain NDCs were not represented.

CMS has expressed concern that partial AMP data may not adequately reflect market trends. 28
Therefore, to identify HCPCS codes with partial AMP data that exceeded the 5-percent threshold
only because AMP data were missing, we reanalyzed pricing data after accounting for the
missing values. Specifically, we replaced each missing AMP with its corresponding ASP and
recalculated the volume-weighted AMPs using those imputed prices. 29 We then compared those
new volume-weighted AMPs to the volume-weighted ASPs originally calculated by CMS.

If a HCPCS code no longer exceeded the 5-percent threshold, we concluded that the missing
AMPs were likely responsible for the HCPCS code initially exceeding the threshold, as opposed
to an actual disparity between ASPs and AMPs in the marketplace.

If a HCPCS code continued to exceed the 5-percent threshold, we concluded that missing AMPs
had little impact on the results of our pricing comparison. These HCPCS codes likely exceeded
the threshold as a result of actual pricing differences between ASPs and AMPs. Because price
substitutions for these HCPCS codes may be warranted, we estimated the monetary impact of
lowering reimbursement to 103 percent of the new volume-weighted AMPs. We also
determined whether any of these codes exceeded the threshold in any of the three previous
quarters and totaled the estimated savings for that subset of codes.


28
  75 Fed. Reg. 73170, 73471 (Nov. 29, 2010).
29
  Although an NDC’s ASP is not usually the same as its AMP, it is generally within about 5 percent of the AMP on
average. Therefore, we believe that ASP acts as a reasonable proxy for AMP, ensuring that the NDC is represented
in both the volume-weighted ASP and the volume-weighted AMP for the HCPCS code.



OEI-03-11-00030          Comparison of Second-Quarter 2010 ASPs and AMPs
Page 9 – Donald M. Berwick, M.D.


Limitations
We did not verify the accuracy of manufacturer-reported ASP and AMP data, nor did we verify
the underlying methodology used by manufacturers to calculate ASPs and AMPs. Furthermore,
we did not verify the accuracy of CMS’s crosswalk files or examine NDCs that CMS opted to
exclude from its calculation of Part B drug reimbursement amounts.

Manufacturers are required to submit their quarterly ASP and AMP data to CMS 30 days after
the close of the quarter. Our analyses were performed on ASP and AMP data compiled by CMS
soon after that deadline. We did not determine whether manufacturers provided additional or
revised pricing data to CMS at a later date.

Standards
This study was conducted in accordance with the Quality Standards for Inspection and
Evaluation issued by the Council of the Inspectors General on Integrity and Efficiency.

RESULTS

Of the 350 Drug Codes With Complete AMP Data, Volume-Weighted ASPs for
10 Exceeded the Volume-Weighted AMPs by at Least 5 Percent
Consistent with sections 1847A(d)(2)(B) and 1847A(d)(3) of the Act, OIG compared ASPs to
AMPs to identify instances in which the ASP for a particular drug exceeded the AMP by a
threshold of 5 percent. In the second quarter of 2010, 10 of the 350 HCPCS codes with complete
AMP data (3 percent) exceeded this 5-percent threshold. Table 2 describes the extent to which
ASPs exceeded AMPs for the 10 HCPCS codes. For two of the codes, the volume-weighted
ASP exceeded the volume-weighted AMP by more than 20 percent. A list of all 10 HCPCS
codes, including their descriptions and HCPCS dosage amounts, is presented in Appendix D.

                       Table 2: Extent to Which ASPs Exceeded AMPs for
                           10 HCPCS Codes With Complete AMP Data
                         Percentage by Which ASP            Number of HCPCS
                         Exceeded AMP                                  Codes
                         5.00%–9.99%                                         4
                         10.00%–19.99%                                       4
                         20.00%–29.99%                                       2
                         30.00%–39.99%                                       0
                         40.00%–49.99%                                       0
                         50.00%–59.99%                                       0
                         60.00%–69.99%                                       0
                         70.00%–79.99%                                       0
                         80.00%–89.99%                                       0
                         90.00%–99.99%                                       0
                         100% and above                                      0
                           Total                                            10
                        Source: OIG analysis of second-quarter 2010 ASP and AMP data, 2010.




OEI-03-11-00030       Comparison of Second-Quarter 2010 ASPs and AMPs
Page 10 – Donald M. Berwick, M.D.


Pursuant to sections 1847A(d)(3) of the Act, the Secretary may disregard the ASP for a drug that
exceeds the 5-percent threshold and shall substitute the payment amount with the lesser of either
the widely available market price or 103 percent of the AMP. If reimbursement amounts for all
10 codes with complete AMP data had been based on 103 percent of the AMPs during the fourth
quarter of 2010, we estimate that Medicare expenditures would have been reduced by
$713,000 in that quarter alone. 30, 31

Over half of the HCPCS codes (6 of 10) also exceeded the 5-percent threshold in at least one of
the previous three quarters. If reimbursement amounts for the six codes had been based on
103 percent of the AMPs during the fourth quarter of 2010, Medicare expenditures would have
been reduced by an estimated $610,000 in that quarter. 32 Table 3 presents a list of the six
HCPCS codes with complete AMP data that previously exceeded the 5-percent threshold.
        Table 3: Six HCPCS Codes With Complete AMP Data in the Second Quarter of 2010
                 That Also Exceeded the 5-Percent Threshold in Previous Quarters
                                                 OIG Reports Comparing ASP and AMP
                                           Second            First           Fourth           Third
                     HCPCS
                                           Quarter         Quarter          Quarter         Quarter
                     Code
                                             2010            2010              2009           2009

                     J0210                  X               X               X               X
                     J1327                  X               X               X               X
                     J9214                  X               X               X               X
                     J0834                  X               X
                     J2675                  X                               X
                     J2993                  X                                               X
                    Source: OIG analysis of ASP and AMP data from the third quarter of 2009 through
                    the second quarter of 2010.
                    In each quarter, codes exceeded the 5-percent threshold based on complete AMP data.


Of the 106 Drug Codes With Partial AMP Data, Volume-Weighted ASPs for
15 Exceeded the Volume-Weighted AMPs by at Least 5 Percent
In addition to examining HCPCS codes with complete AMP data, we examined 106 HCPCS
codes for which only partial AMP data were available. ASPs for 15 of these 106 HCPCS codes
(14 percent) exceeded the AMPs by at least 5 percent in the second quarter of 2010. A list of the
15 HCPCS codes, including their descriptions and HCPCS dosage amounts, is presented in
Appendix E.


30
   All savings estimates in this report assume that the number of services that were allowed by Medicare in 2009
remained consistent from one quarter to the next and that there were no significant changes in utilization between
2009 and 2010.
31
   Of the 10 HCPCS codes that met the 5-percent threshold using complete AMP data, 1 was not listed in the 2009
PBAR file. As a result, this code was not included in the estimated savings for this group.
32
   Of the six HCPCS codes with complete AMP data that met the 5-percent threshold in multiple quarters, one had
no expenditures listed in the 2009 PBAR file. As a result, this code was not included in the estimated savings for
this group.



OEI-03-11-00030            Comparison of Second-Quarter 2010 ASPs and AMPs
Page 11 – Donald M. Berwick, M.D.


For 5 of the 15 HCPCS codes, missing AMPs likely had little influence on the outcome of the
pricing comparisons. Five of the 15 HCPCS codes with partial AMP data continued to exceed
the threshold when we accounted for missing AMPs, suggesting that the pricing comparisons for
these codes were accurately capturing underlying market trends even though AMP data were not
available for the full set of NDCs. Because missing AMPs likely had little influence on the
pricing comparison results for these five HCPCS codes, price substitutions may be legitimately
warranted in these cases. If reimbursement amounts for the five codes had been based on
103 percent of the AMPs, we estimate that Medicare expenditures would have been reduced by
$239,000 during the fourth quarter of 2010.

Table 4 describes the extent to which ASPs exceeded AMPs for the five HCPCS codes. For one
of the codes, volume-weighted ASPs exceeded AMPs by more than 20 percent.

                       Table 4: Extent to Which ASPs Exceeded AMPs for
                           Five HCPCS Codes With Partial AMP Data
                           Percentage by Which ASP            Number of HCPCS
                           Exceeded AMP                                  Codes
                           5.00%–9.99%                                         2
                           10.00%–19.99%                                       2
                           20.00%–29.99%                                       1
                           30.00%–39.99%                                       0
                           40.00%–49.99%                                       0
                           50.00%–59.99%                                       0
                           60.00%–69.99%                                       0
                           70.00%–79.99%                                       0
                           80.00%–89.99%                                       0
                           90.00%–99.99%                                       0
                           100% and above                                      0
                              Total                                            5
                          Source: OIG analysis of second-quarter 2010 ASP and AMP data, 2010.


For the remaining 10 of 15 HCPCS codes, ASPs no longer exceeded the AMPs in the second
quarter of 2010, indicating that these codes initially exceeded the threshold because of missing
AMP data rather than a genuine pricing disparity between the ASPs and AMPs.

Of the five HCPCS codes on which missing AMPs likely had little influence, three exceeded the
5-percent threshold in at least one of the previous three quarters. If reimbursement amounts for
the three codes had been substituted with 103 percent of the AMPs, Medicare expenditures
would have been reduced by an estimated $11,000 during the fourth quarter of 2010.
Table 5 presents a list of the three HCPCS codes with partial AMP data that also exceeded the
5-percent threshold in previous quarters.




OEI-03-11-00030       Comparison of Second-Quarter 2010 ASPs and AMPs
Page 12 – Donald M. Berwick, M.D.


         Table 5: Three HCPCS Codes With Partial AMP Data in the Second Quarter of 2010
                 That Also Exceeded the 5-Percent Threshold in Previous Quarters
                                                OIG Reports Comparing ASP and AMP
                                         Second            First           Fourth           Third
                   HCPCS
                                         Quarter         Quarter          Quarter         Quarter
                   Code
                                           2010            2010              2009           2009

                   J0560                 X                X               X               X*
                   J1940                 X                X               X
                   J7506                 X                X                               X
                  Source: OIG analysis of ASP and AMP data from the third quarter of 2009 through
                  the second quarter of 2010.
                  *This code previously exceeded the 5-percent threshold during the specified quarter based
                  on complete AMP data. For all other quarters, codes exceeded the 5-percent threshold based
                  on partial AMP data.


Pricing Comparisons Could Not Be Performed on 54 Drug Codes Because No AMP Data
Were Available
For 54 HCPCS codes, OIG could not compare ASPs and AMPs because there were no AMP data
for any of the 236 NDCs that CMS used when calculating drug reimbursement amounts for these
codes. In 2009, Medicare allowances for these 54 codes totaled $163 million. 33

Manufacturers for 16 percent of the NDCs without AMP data (38 of 236) participated in the
Medicaid drug rebate program as of the second quarter of 2010 and were therefore generally
required to submit AMP data for their covered outpatient drugs. 34, 35, 36 The majority of these
38 NDCs belonged to one manufacturer.

Manufacturers for the remaining 198 of 236 NDCs did not participate in the Medicaid drug
rebate program and therefore were not required to submit AMP data.

CONCLUSION

To monitor Medicare reimbursement amounts based on ASPs and consistent with its statutory
mandate, OIG compared ASPs and AMPs to identify instances in which the ASP for a particular
drug exceeded the AMP by at least 5 percent. This is OIG’s 19th report comparing ASPs and
AMPs, and it examines HCPCS codes with AMP data for every NDC that CMS used to establish
reimbursement amounts, as well as HCPCS codes with only partial AMP data.


33
   Of the 54 HCPCS codes with no associated AMP data, 6 were not listed in the 2009 PBAR file. As a result, these
codes were not included in the total Medicare allowances for the year.
34
   To determine whether a manufacturer participated in the Medicaid drug rebate program, we consulted CMS’s
Drug Company Contact Information, accessed at http://www.cms.gov on October 19, 2010.
35
   Although manufacturers with rebate agreements are required to submit AMP data for their covered outpatient
drugs, there may be valid reasons why an AMP was not provided for a specific NDC in a given quarter. For
example, a manufacturer may not have been required to submit an AMP if the drug product had been terminated and
there was no drug utilization during the quarter.
36
   These 38 NDCs were crosswalked to 18 HCPCS codes.



OEI-03-11-00030            Comparison of Second-Quarter 2010 ASPs and AMPs
Page 13 – Donald M. Berwick, M.D.


We identified a total of 25 HCPCS codes that exceeded the threshold for price adjustment in the
second quarter of 2010. Of these 25 HCPCS codes, 10 had complete AMP data (i.e., AMP data
for every drug product that CMS used to establish reimbursement amounts). If reimbursement
amounts for all 10 codes with complete AMP data had been based on 103 percent of the AMPs
during the fourth quarter of 2010, we estimate that Medicare expenditures would have been
reduced by $713,000 in that quarter alone. The remaining 15 of 25 HCPCS codes also exceeded
the 5-percent threshold in the second quarter of 2010 but did not have AMP data for every drug
product that CMS used when calculating reimbursement. For 5 of the 15 codes, price reductions
may be legitimately warranted because missing AMPs likely had little influence on the pricing
comparison results for these codes. We could not compare ASPs and AMPs for 54 HCPCS
codes because AMP data were not submitted for any of the NDCs that CMS used to calculate
reimbursement. Manufacturers for 16 percent of these NDCs had Medicaid drug rebate
agreements and were therefore generally required to submit AMPs. OIG will continue to work
with CMS to evaluate and pursue appropriate actions against those manufacturers that fail to
submit required data.

Some of OIG’s previous reports comparing ASPs and AMPs have contained recommendations,
which we continue to support. 37 We are not making additional recommendations in this report
and, as such, are issuing the report directly in final form. If you have comments or questions
about this report, please provide them within 60 days. Please refer to report number
OEI-03-11-00030 in all correspondence.




37
     For example, OEI-03-08-00450, December 2008; and OEI-03-09-00350, February 2010.



OEI-03-11-00030            Comparison of Second-Quarter 2010 ASPs and AMPs
Page 14 – Donald M. Berwick, M.D.


APPENDIX A

The Equation Used by the Centers for Medicare & Medicaid Services To Calculate
Volume-Weighted Average Sales Prices on or After April 1, 2008


A volume-weighted average sales price (ASP) is calculated for the dosage amount associated with
the Healthcare Common Procedure Coding System (HCPCS) code. In the following equation, the
“number of billing units” represents the number of HCPCS code doses that are contained in a
national drug code (NDC).



       Volume-Weighted ASP           Sum of (ASP for NDC * Number of NDCs Sold)
        for Dosage Amount  =
          of HCPCS Code        Sum of (Number of NDCs Sold * Number of Billing Units in NDC)




OEI-03-11-00030      Comparison of Second-Quarter 2010 ASPs and AMPs
Page 15 – Donald M. Berwick, M.D.


APPENDIX B

Previous Office of Inspector General Reports Comparing Average Sales Prices and Average
Manufacturer Prices


                     Monitoring Medicare Part B Drug Prices: A Comparison of Average Sales
                      Prices to Average Manufacturer Prices, OEI-03-04-00430, April 2006

                     Comparison of Fourth-Quarter 2005 Average Sales Prices to Average
                      Manufacturer Prices: Impact on Medicare Reimbursement for Second Quarter
                      2006, OEI-03-06-00370, July 2006

                     Comparison of Third-Quarter 2006 Average Sales Prices to Average
                      Manufacturer Prices: Impact on Medicare Reimbursement for First Quarter
                      2007, OEI-03-07-00140, July 2007

                     Comparison of First-Quarter 2007 Average Sales Prices to Average
                      Manufacturer Prices: Impact on Medicare Reimbursement for Third Quarter
                      2007, OEI-03-07-00530, September 2007

                     Comparison of Second-Quarter 2007 Average Sales Prices and Average
                      Manufacturer Prices: Impact on Medicare Reimbursement for Fourth Quarter
                      2007, OEI-03-08-00010, December 2007

                     Comparison of Third-Quarter 2007 Average Sales Prices and Average
                      Manufacturer Prices: Impact on Medicare Reimbursement for First Quarter
                      2008, OEI-03-08-00130, May 2008

                     Comparison of Fourth-Quarter 2007 Average Sales Prices and Average
                      Manufacturer Prices: Impact on Medicare Reimbursement for Second Quarter
                      2008, OEI-03-08-00340, August 2008

                     Comparison of Average Sales Prices and Average Manufacturer Prices: An
                      Overview of 2007, OEI-03-08-00450, December 2008

                     Comparison of First-Quarter 2008 Average Sales Prices and Average
                      Manufacturer Prices: Impact on Medicare Reimbursement for Third Quarter
                      2008, OEI-03-08-00530, December 2008




OEI-03-11-00030          Comparison of Second-Quarter 2010 ASPs and AMPs
Page 16 – Donald M. Berwick, M.D.


                     Comparison of Second-Quarter 2008 Average Sales Prices and Average
                      Manufacturer Prices: Impact on Medicare Reimbursement for Fourth Quarter
                      2008, OEI-03-09-00050, February 2009

                     Comparison of Third-Quarter 2008 Average Sales Prices and Average
                      Manufacturer Prices: Impact on Medicare Reimbursement for First Quarter
                      2009, OEI-03-09-00150, April 2009

                     Comparison of Fourth-Quarter 2008 Average Sales Prices and Average
                      Manufacturer Prices: Impact on Medicare Reimbursement for Second Quarter
                      2009, OEI-03-09-00340, August 2009

                     Comparison of First-Quarter 2009 Average Sales Prices and Average
                      Manufacturer Prices: Impact on Medicare Reimbursement for Third Quarter
                      2009, OEI-03-09-00490, August 2009

                     Comparison of Second-Quarter 2009 Average Sales Prices and Average
                      Manufacturer Prices: Impact on Medicare Reimbursement for Fourth Quarter
                      2009, OEI-03-09-00640, January 2010

                     Comparison of Average Sales Prices and Average Manufacturer Prices: An
                      Overview of 2008, OEI-03-09-00350, February 2010

                     Comparison of Third-Quarter 2009 Average Sales Prices and Average
                      Manufacturer Prices: Impact on Medicare Reimbursement for First Quarter
                      2010, OEI-03-10-00150, April 2010

                     Comparison of Fourth-Quarter 2009 Average Sales Prices and Average
                      Manufacturer Prices: Impact on Medicare Reimbursement for Second Quarter
                      2010, OEI-03-10-00350, July 2010

                     Comparison of First-Quarter 2010 Average Sales Prices and Average
                      Manufacturer Prices: Impact on Medicare Reimbursement for Third Quarter
                      2010, OEI-03-10-00440, November 2010




OEI-03-11-00030          Comparison of Second-Quarter 2010 ASPs and AMPs
Page 17 – Donald M. Berwick, M.D.


APPENDIX C

Detailed Methodology for Converting and Volume-Weighting Average Manufacturer
Prices for the Second Quarter of 2010

Healthcare Common Procedure Coding System codes with complete average manufacturer price
data. Of the 519 Healthcare Common Procedure Coding System (HCPCS) codes with
reimbursement amounts based on average sales prices (ASP), 358 had average manufacturer
prices (AMP) for every national drug code (NDC) that the Centers for Medicare & Medicaid
Services (CMS) used to calculate volume-weighted ASPs. These 358 HCPCS codes represented
1,395 NDCs. For 10 NDCs, we could not successfully identify the amount of the drug reflected
by the ASP and therefore could not calculate a converted AMP. These 10 NDCs were
crosswalked to 8 HCPCS codes. We did not include these 8 HCPCS codes (42 NDCs) in our
final analysis.

Using the converted AMPs for the remaining 1,353 NDCs, we then calculated a
volume-weighted AMP for each of the remaining 350 HCPCS codes consistent with CMS’s
methodology for calculating volume-weighted ASPs.

HCPCS codes with partial AMP data. There were 107 HCPCS codes with AMP data for only
some of the NDCs that CMS used in its calculation of volume-weighted ASPs. These
107 HCPCS codes represented a total of 1,370 NDCs. AMP data were either missing or
unavailable for 541 of these NDCs, which were then excluded from our calculation of
volume-weighted AMPs. 38

We calculated converted AMPs for each of the remaining 829 NDCs. For 8 of the 829 NDCs,
we could not successfully identify the amount of the drug reflected by the ASP and therefore
could not calculate a converted AMP. We removed these eight NDCs from our analysis. 39 As a
result, one HCPCS code no longer had any NDCs with AMP data. Therefore, this HCPCS code
was removed from our analysis.

Using the converted AMPs for the remaining 821 NDCs, we then calculated a
volume-weighted AMP for each of the remaining 106 HCPCS codes consistent with CMS’s
methodology for calculating volume-weighted ASPs.




38
   Although AMP data for these 541 NDCs were excluded from our calculation of volume-weighted AMPs, the
corresponding ASPs were not excluded from the volume-weighted ASPs as determined by CMS.
Volume-weighted ASPs remained the same, regardless of the availability of AMP data.
39
   Although we removed NDCs with problematic AMP conversions, we did not remove the corresponding HCPCS
codes, provided that other NDCs for those drug codes had usable AMP data. This differs from our analysis of
HCPCS codes with complete AMP data, in which we removed not only the NDCs with problematic AMP
conversions, but also the corresponding HCPCS codes.



OEI-03-11-00030         Comparison of Second-Quarter 2010 ASPs and AMPs
Page 18 – Donald M. Berwick, M.D.


HCPCS codes with no AMP data. For 54 HCPCS codes, there were no AMP data for any of the
NDCs that CMS used in its calculation of volume-weighted ASPs. These 54 HCPCS codes
represented 236 NDCs.




OEI-03-11-00030     Comparison of Second-Quarter 2010 ASPs and AMPs
Page 19 – Donald M. Berwick, M.D.


APPENDIX D

Ten Drug Codes With Complete Average Manufacturer Price Data That Exceeded the
5-Percent Threshold in the Second Quarter of 2010


          Drug
          Code                                                   Short Description         Drug Code Dosage
          J0210                                          Methyldopate HCl injection                     250 mg

          J0637                                        Caspofungin acetate injection                       5 mg

          J0834                                      Cosyntropin cortrosyn injection                    0.25 mg

          J1327                                                 Eptifibatide injection                     5 mg

          J2675                                               Progesterone injection                      50 mg

          J2690                                          Procainamide HCl injection                            1g

          J2993                                                  Reteplase injection                    18.1 mg

          J7501                                             Azathioprine, parenteral                    100 mg

          J9190                                                Fluorouracil injection                   500 mg

          J9214                                           Interferon alfa-2b injection            1 million units

         mg=milligram, g=gram
         Source: Office of Inspector General analysis of second-quarter 2010 average sales price and average
         manufacturer price data, 2010.




OEI-03-11-00030          Comparison of Second-Quarter 2010 ASPs and AMPs
Page 20 – Donald M. Berwick, M.D.


APPENDIX E

Fifteen Drug Codes With Partial Average Manufacturer Price Data That Exceeded the
5-Percent Threshold in the Second Quarter of 2010


          Drug
          Code                                                    Short Description        Drug Code Dosage
          90586                                             Bcg vaccine, intravesical                   1 each

          J0560                                      Penicillin g benzathine injection            600,000 units

          J1626                                            Granisetron HCl injection                  100 mcg

          J1940                                                 Furosemide injection                     20 mg

          J2310                                              Naloxone HCl injection                       1 mg

          J2700                                            Oxacillin sodium injection                  250 mg

          J7506                                                     Prednisone, oral                      5 mg

          J7611                                          Albuterol, noncompounded                         1 mg

          J9031                                         Bcg live intravesical vaccine                   1 each

          J9045                                                 Carboplatin injection                    50 mg

          Q0165                                      Prochlorperazine maleate, oral                      10 mg

          Q0177                                          Hydroxyzine pamoate, oral                       25 mg

          Q0178                                          Hydroxyzine pamoate, oral                       50 mg

          Q9965                 Low osmolar contrast material,100–199 mg/ml iodine                        1 ml

          Q9966                Low osmolar contrast material, 200–299 mg/ml iodine                        1 ml

         mcg=microgram, mg=milligram, and ml=milliliter
         Source: Office of Inspector General analysis of second-quarter 2010 average sales price and average manufacturer
         price data, 2010.




OEI-03-11-00030          Comparison of Second-Quarter 2010 ASPs and AMPs
